<html>
<title> - [H.A.S.C. No. 116-38] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2020 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED SIXTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



                                     
 
                         [H.A.S.C. No. 116-38]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                      FISCAL YEAR 2020 PRIORITIES

                        FOR MISSILE DEFENSE AND

                        MISSILE DEFEAT PROGRAMS

                               __________

                              HEARING HELD
                              MAY 8, 2019
                              
                              
                              
                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     


                                     
                             ______

                U.S. GOVERNMENT PUBLISHING OFFICE 
 37-514                WASHINGTON : 2020 


                    SUBCOMMITTEE ON STRATEGIC FORCES

                    JIM COOPER, Tennessee, Chairman

SUSAN A. DAVIS, California           MICHAEL R. TURNER, Ohio
RICK LARSEN, Washington              JOE WILSON, South Carolina
JOHN GARAMENDI, California           ROB BISHOP, Utah
JACKIE SPEIER, California            MIKE ROGERS, Alabama
SETH MOULTON, Massachusetts          MO BROOKS, Alabama
SALUD O. CARBAJAL, California        BRADLEY BYRNE, Alabama
RO KHANNA, California                SCOTT DesJARLAIS, Tennessee
WILLIAM R. KEATING, Massachusetts    LIZ CHENEY, Wyoming
KENDRA S. HORN, Oklahoma, Vice 
    Chair
                Maria Vastola, Professional Staff Member
                Sarah Mineiro, Professional Staff Member
                           Zach Taylor, Clerk
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Chairman, 
  Subcommittee on Strategic Forces...............................     1
Turner, Hon. Michael R., a Representative from Ohio, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2

                               WITNESSES

Anderson, James H., Assistant Secretary of Defense for Strategy, 
  Plans and Capabilities, U.S. Department of Defense.............     5
Behler, Robert F., Director, Operational Test and Evaluation, 
  Office of the Secretary of Defense.............................     4
Greaves, Lt Gen Samuel A., USAF, Director, Missile Defense Agency     7
Kriete, VADM David, USN, Deputy Commander, United States 
  Strategic Command..............................................     9
O'Shaughnessy, Gen Terrence J., USAF, Commander, United States 
  Northern Command...............................................     5

                                APPENDIX

Prepared Statements:

    Anderson, James H............................................    55
    Behler, Robert F.............................................    26
    Cooper, Hon. Jim.............................................    25
    Greaves, Lt Gen Samuel A.....................................    61
    Kriete, VADM David...........................................   106
    O'Shaughnessy, Gen Terrence J................................    38

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................   133
    Mrs. Davis...................................................   135
    
  FISCAL YEAR 2020 PRIORITIES FOR MISSILE DEFENSE AND MISSILE DEFEAT 
                                PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                            Washington, DC, Wednesday, May 8, 2019.
    The subcommittee met, pursuant to call, at 2:14 p.m., in 
room 2118, Rayburn House Office Building, Hon. Jim Cooper 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM 
     TENNESSEE, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. The subcommittee will come to order.
    The hearing today is to receive testimony on the 2020 
budget request for missile defense and to discuss the 
implementation of the 2019 Missile Defense Review.
    I appreciate all the witnesses being here. I will ask 
unanimous consent that your full testimony can be submitted for 
the record, so I hope you will summarize in about 5 minutes. I 
know that is going to be a challenge, because just General 
Greaves alone was 42 pages, so it is a bigger challenge for him 
than for the others.
    But we are honored to have Mr. Behler here, General 
O'Shaughnessy, Dr. Anderson, Lieutenant General Greaves, and 
Vice Admiral Kriete. Did I pronounce that correctly?
    Admiral Kriete. Kriete.
    Mr. Cooper. Kriete. Excuse me.
    Thank you all for coming today to provide your views.
    I would like to single out General Greaves because it is my 
understanding this is your last hearing, at least on the House 
side. So I want to express my deep appreciation to you, not 
only as a general officer in the Air Force, but as a personal 
friend; your fantastic 37 years of service to the Nation. We 
appreciate the high quality of your work and your extraordinary 
service. So I am sorry this will be your last hearing, but you 
are always welcome to come back and visit us any time you would 
like. But thank you, General.
    General Greaves. Mr. Chairman, thank you. Those are very 
kind words. It has been an honor. Thanks.
    Mr. Cooper. Our ranking member----
    Mr. Turner. Sorry, I am not used to the hearing beginning 
without me. We all just came from votes, so it is not as if we 
didn't have a direct line.
    Mr. Cooper. Well, you have perfect timing. Perfect timing.
    Mr. Turner. Great. So you are passing it to me?
    Mr. Cooper. Yes. The ranking member, Mr. Turner, for his 
remarks.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 25.]

  STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE FROM 
     OHIO, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Well, thank you all. I appreciate your 
expertise and your work. Obviously, with missile defense, we 
don't have a margin of error. And your work to try to give us 
the technological edge to be able to protect the American 
population is incredibly important. We have been through a lot 
of starts, stops, and shifts into what our mix would be in 
order to look to protect the continental United States. And I 
greatly appreciate that you have been part of that overall 
discussion.
    I think the Missile Defense Review does start addressing 
some of our emerging missile threats. The budget request for 
Missile Defense Agency [MDA] is actually lower, though, about 
$1 billion than fiscal year 2019, which is about 10 percent of 
MDA's budget. So it startles, I think, all of us on how the 
administration thinks it can address these increasing missile 
threats, including hypersonic, at the same time that we have 
that decrease.
    Second, in space-based sensing, last year, on a bipartisan 
basis and bicameral basis, in recognition of the threat of 
hypersonic weapons being developed by Russia and China, 
Congress increased funding to an MDA program that would have 
provided a space-based sensing capability. We need that 
capability to detect and track hypersonic threats coming to the 
U.S. homeland.
    This year, that program is zeroed out and does not appear 
anywhere in the President's budget. Instead, this program 
appears as MDA's number one priority on its unfunded priorities 
list. And I look forward to hearing from General Greaves about 
his perspectives on the future of this capability. And I also 
note that the commander of the United States Strategic Command 
mentioned this program as an area of concern in his letter to 
the committee on unfunded mandates.
    Lastly, over the past year, the ground-based midcourse 
defense system has experienced numerous significant issues that 
are adequately addressed in the budget submission.
    An issue with the redesigned kill vehicle has caused at 
least a 2-year delay in its fielding. I want to say that again, 
because I keep hearing some of the comments on the response to 
this as it is going to have minimal impact or we are dealing 
with the issue or we think we found a path forward. It is at 
least a 2-year delay in fielding, that is because we don't 
really actually yet even have the answer as to what the 
solution is going to be, that is what the projections are. I am 
obviously very concerned, when I look at missile defense as 
having no margin of error, that that error also should not be 
significant slips.
    This means we will not be able to get all of the ground-
based interceptors emplaced in Fort Greely by 2023. 
Additionally, the Department has significantly decreased 
funding for the multi-object kill vehicle, reducing funding to 
keep the program on life support through low-level technology 
maturation efforts. The Department has once again failed to 
make a designation on an east coast missile defense site, which 
Congress has carried supportive language on the NDAA [National 
Defense Authorization Act] in its passage since fiscal year 
2013.
    Working with my colleague Elise Stefanik, we have called on 
the Department to publicly announce location of such a site. 
The environmental impact statement is complete, and it is 
imperative that the agency lean forward on the emerging missile 
capabilities of our adversaries that serve to threaten our 
homeland and move forward on designating the site to enhance 
our homeland missile defense capability.
    Another aspect as to why this is important is you have 
three communities that are vying for this. Two need to be let 
go. Two need to be able to be told that they can stand down and 
that their communities and their chambers of commerce and 
everybody else who is working to advocate for their community 
needs to understand that actually a decision has been made 
because you have completed all the data work necessary for that 
decision, it just needs to be announced.
    Now, on two occasions, Acting Secretary of Defense Shanahan 
has committed on the record to fulfilling Congress' intent on 
this important matter. On March 26, in an open hearing of our 
full committee on the fiscal year 2020 national budget, the 
Acting Secretary stated to Congresswoman Stefanik that we can 
count on him sharing the site designation with our committee. 
Again, then on May 1, before a House Appropriations Defense 
Subcommittee hearing on DOD's [Department of Defense's] budget 
request, the Acting Secretary promised Congressman Tim Ryan, in 
an answer on the site selection within hours of the hearing's 
conclusion. He actually said, I will give you an answer today. 
Well, that day has passed. To my knowledge, this promise has 
not yet been fulfilled either. And so now is the time for the 
Department to make good on its commitments.
    The GMD [Ground-based Midcourse Defense] program is at a 
central element of missile defense. It is the only pure 
homeland defense element of our missile defense architecture. 
But with multiple delays, failures, and willful disregard of 
congressional intent, I am left worrying about the fate of 
homeland missile defense of the future.
    There is no doubt the missile defense--that missile threats 
are increasing quantitatively and qualitatively. More countries 
have ballistic missiles. All of those missiles are increasing 
in their integration of countermeasures to evade our current 
missile defense capability. But this budget submission, the 
reduction of MDA's budget and the inability of the enterprise 
to fulfill basic congressional intent all increased the 
uncertainty that we can meet these challenges in the future.
    I look forward to all the witness testimony. Thank you.
    Mr. Cooper. I thank the ranking member.
    Before we hear from the witnesses, let me remind all 
subcommittee members that there will be a classified hearing 
after this that is extremely important to attend, so I hope 
that your schedules will allow you to be there.
    As I mentioned earlier, your testimony is submitted for the 
record. So if you would summarize, starting with Mr. Behler.

 STATEMENT OF ROBERT F. BEHLER, DIRECTOR, OPERATIONAL TEST AND 
         EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Mr. Behler. Thank you, Chairman Cooper, Ranking Member 
Turner, and distinguished members of the subcommittee. I am 
honored to be here, along with the other distinguished panel 
witnesses here, to discuss missile defense testing and my 
independent assessment of the Ballistic Missile Defense System 
as the Director of Operational Test and Evaluation [DOT&E].
    On March 25 of this year, I witnessed the Missile Defense 
Agency's most operationally realistic flight test of the 
ground-based intercept midcourse defense system, which is 
designed to protect the U.S. homeland against an ICBM 
[intercontinental ballistic missile] attack.
    During that test, the salvo of two ground interceptors were 
employed against an ICBM target that was launched 5,000 miles 
away. Preliminary indications are that the system worked as 
designed and intercepted the target. My office was heavily 
involved in designing this test, reflecting the strong 
relationship between DOT&E and the Missile Defense Agency.
    Testing conducted to date demonstrates that the Ground-
based Midcourse Defense system is capable of defending the U.S. 
homeland from small numbers of intermediate-range missiles and 
ICBM threats with simple countermeasures when BMDS [Ballistic 
Missile Defense System] employs its full architecture of 
sensors and its command and control system.
    Testing also demonstrates the capability to defend U.S. 
Indo-Pacific Command, U.S. European Command, and U.S. Central 
Command from short-range ballistic missiles and from small 
numbers of medium- and intermediate-range ballistic missiles.
    Missile defense system flight testing is constrained by 
many, many factors. Most notably, range safety considerations 
and cost. Independently accredited modeling and simulation 
instantiated by flight test data is necessary to adequately 
assess the effectiveness of the missile defense system in 
complex realistic scenarios.
    The following key challenges effectiveness--it affects the 
missile defense capabilities and my ability to assess its 
capabilities. First, the need for accredited modeling and 
simulation to adequately assess the BMDS effectiveness. 
Susceptibility of BMDS to cyberattacks. Third, reliability and 
sustainment. Fourth, interoperability and automated engagement 
deconfliction. And fifth, discrimination of threat reentry 
vehicles.
    In closing, I would like to echo the chairman's comments: 
General Greaves transitioning out of the Air Force after a very 
distinguished military career. I pause to commend General 
Greaves for his steadfast leadership of the Missile Defense 
Agency and how professionally he has coordinated with me and my 
staff during his tenure.
    I thank the subcommittee for your attention and look 
forward to your questions.
    [The prepared statement of Mr. Behler can be found in the 
Appendix on page 26.]
    Mr. Cooper. Thank you.
    General O'Shaughnessy.

 STATEMENT OF GEN TERRENCE J. O'SHAUGHNESSY, USAF, COMMANDER, 
                 UNITED STATES NORTHERN COMMAND

    General O'Shaughnessy. Thank you, Chairman Cooper, and 
Ranking Member Turner, and distinguished members of the 
subcommittee. I am truly honored to appear today as the 
commander of the United States Northern Command [USNORTHCOM] 
and North American Aerospace Defense Command [NORAD]. And while 
I am honored to be here with all of my colleagues, I too want 
to recognize Lieutenant General Sam Greaves and all the members 
of MDA for their incredible support to the warfighter. Both now 
and looking into the future, I know we are in good hands with a 
great partner.
    And I will keep my remarks brief to allow more time for 
your questions, but I do want to start by thanking you for the 
opportunity to testify today.
    As a warfighter responsible for defending the homeland from 
attack, I am truly grateful for the steadfast support of this 
subcommittee. That support is vital as revisionist powers of 
Russia and China have given every indication that their own 
security strategies are based on holding the United States at 
risk with both conventional and nuclear weapons. And they have 
signaled that we must anticipate attacks against our civilian 
and defense infrastructure in the event of a conflict. And as a 
result, it is clear to me that the homeland is not a sanctuary.
    USNORTHCOM and NORAD's mission to deter our adversaries is 
clearly dependent on our ability to detect and defeat potential 
threats to the homeland. And to help pace our adversaries, we 
must take prudent steps now to ensure our next-generation 
defensive capabilities, to include a space-based sensing layer, 
are not late to need. We must also act now to improve our 
ability to see and defeat the advanced long-range cruise 
missiles already fielded by our adversaries.
    And I am grateful to the subcommittee for your strong 
support of USNORTHCOM and NORAD priorities along these line of 
effort. And no matter the threat, the men and women of 
USNORTHCOM and NORAD are deeply committed to defending our 
nations. And I am honored to represent them today.
    Gentlemen, we have the watch. And thank you, and I look 
forward to your questions.
    [The prepared statement of General O'Shaughnessy can be 
found in the Appendix on page 38.]
    Mr. Cooper. Thank you.
    Dr. Anderson.

STATEMENT OF JAMES H. ANDERSON, ASSISTANT SECRETARY OF DEFENSE 
   FOR STRATEGY, PLANS AND CAPABILITIES, U.S. DEPARTMENT OF 
                            DEFENSE

    Secretary Anderson. Chairman Cooper, Ranking Member Turner, 
and members of the committee, thank you for the opportunity to 
testify on the Department's missile defense policy, posture, 
and budget. The MDR [Missile Defense Review] articulates a 
comprehensive approach to address the missile threat through 
strength and deterrence and active missile defense systems for 
both homeland and regional defense.
    Over the past decade, North Korea and Iran have accelerated 
efforts to develop and field missiles capable of threatening 
U.S. strategic interests. North Korea possesses a range of 
systems, including road-mobile intercontinental ballistic 
missiles, solid propellant medium-range ballistic missiles, and 
submarine-launched ballistic missiles.
    For its part, Iran already possesses the largest stockpile 
of regional missile systems in the Middle East. Iran continues 
to improve its missile capabilities and develop space launch 
vehicles which provide knowledge to develop an 
intercontinental-range ballistic missile if they decide to 
pursue that path.
    We also see the reemergence of long-term strategic 
competition by revisionist powers in Russia and China. Russia 
and China are expanding and modernizing a wide range of 
offensive missile capabilities.
    As highlighted in the MDR, a comprehensive layer of defense 
is needed to address today's complex threats. Within the MDR 
framework, the key roles for missile defense include protecting 
the United States homeland, our forces abroad, and allies and 
partners; diminishing the benefits of adversary coercive 
threats and attacks; assuring allies and partners that we will 
stand by our security commitments; preserving our freedom of 
action to conduct military operations; and hedging against 
future unanticipated missile threats.
    Let me now turn to missile defense capabilities, posture, 
and budget that flow from our policy in the MDR to counter 
these threats. Regarding the first priority to protect the 
United States homeland today, the United States is protected by 
the Ground-based Midcourse Defense, GMD, system. The budget 
requests $1.8 billion for the system, which includes a number 
of improvements, such as adding 20 ground-based interceptors in 
Alaska, bringing the total to 64, continuing development of the 
Redesigned Kill Vehicle for improved reliability, and 
continuing to build a new missile field at Fort Greely, Alaska.
    The budget also requests funding to field new 
discrimination radars in Alaska and Hawaii and extend 
operations for a sea-based X-band radar.
    To address the regional missile threat, our efforts focused 
on an integrated air and missile defense to defend U.S. forces 
abroad, allies, and partners against missile threats from any 
source. We are strengthening our regional missile defense 
posture by funding several programs. For instance, we are 
enhancing the Aegis Ballistic Missile Defense System by 
procuring the Standard Missile-3 [SM-3], Block IB and Block IIA 
missile and integrated SPY-6 radar.
    The Department will also procure additional Terminal High-
Altitude Area Defense, THAAD, interceptors, Patriot 
interceptors, and Army Indirect Fire Protection Capability 
command and control system.
    In addition to improving our legacy systems, the 2019 MDR 
calls for pursuing a range of technologies and examining 
advanced concepts and breakthrough technologies. We are 
requesting funding for additional sensors; integrated Space-
based Kill Assessment into the Ballistic Missile Defense 
System; operating and sustaining the Space Tracking and 
Surveillance System; developing defenses against hypersonic 
missiles; testing the SM-3 Block IIA capability against an 
ICBM-class target; kinetic boost phase intercept using a 
tactical air platform; technology maturation initiatives, 
including initiating a neutral particle beam technology 
demonstration program; and a study of space-based interceptors.
    The MDR stresses the importance of working with allies and 
partners and encouraging them to invest in their own air and 
missile defense capabilities that are interoperable with U.S. 
capabilities. Interoperable integrated air and missile defense 
systems can take advantage of cost sharing and help distribute 
the burden of the common defense.
    In closing, our missile defense investments and priorities 
focus on concepts and advanced technologies to ensure the 
continuing effectiveness of our missile defenses against 
capabilities of potential adversaries. By so doing, we will 
strengthen our ability to protect the homeland, enhance 
deterrence, stabilize crises, and better control escalation, 
protect and assure allies and partners, and hedge against 
future threats.
    Thank you again for the opportunity to testify. I look 
forward to your questions.
    [The prepared statement of Secretary Anderson can be found 
in the Appendix on page 55.]
    Mr. Cooper. Thank you.
    General Greaves.

STATEMENT OF LT GEN SAMUEL A. GREAVES, USAF, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    General Greaves. Chairman Cooper, Ranking Member Turner, 
distinguished members of the subcommittee, good afternoon, and 
thank you for this opportunity to testify on the Missile 
Defense Agency's budget request for fiscal year 2020.
    I first wish to thank the subcommittee for its continued 
support of this very important mission area. I would also like 
to thank the thousands of men and women across government and 
industry who tirelessly work every single day in support of our 
Nation's Ballistic Missile Defense System. Without question, 
they are the source of our strength and one of the reasons the 
Armed Forces of the United States remain unparalleled in the 
world.
    Our budget request of $9.4 billion, which supports the 
President's commitment to sustain, expand, and improve the 
performance and reliability of the Nation's missile defense 
systems and reflects what was broadly articulated in the 2019 
Missile Defense Review.
    This funding request will continue development, rigorous 
testing, and fielding of reliable, increasingly capable, and 
advanced defenses for the protection of the United States, our 
deployed forces, allies, and partners against current and 
projected missile threats.
    The Agency is also taking significant steps in improving 
the cybersecurity posture of the ballistic missile defense 
operational and developmental systems in defending against 
emerging cyber threats. We will continue to work closely with 
the Director of Operational Test and Evaluation and the 
combatant commanders in such things as persistent cyber 
operations testing to enhance our cyber defense posture.
    On GMD. Program plans for the Ground-based Midcourse 
Defense system included the continued construction of 22 
missile silos at Fort Greely, Alaska, and the procurement of an 
additional 20 ground-based interceptors for homeland defense 
upon completion of the Redesigned Kill Vehicle development 
program. However, during the Redesigned Kill Vehicle program's 
design phase, I assessed that we were unable to meet a key set 
of critical entrance criteria for our critical design review, 
the result of which is a projected delay in the program of up 
to 2 years.
    On sensors. With the addition of the long-range 
discriminating radar, the homeland defense radar in Hawaii, and 
in the future, the Pacific radar, we will have in place a 
diverse sensor architecture in the Pacific to provide and 
improve a persistent midcourse tracking and discrimination 
capability against future threats.
    The combination of high speed, maneuverability, and 
relatively low altitude of some of the emerging advanced 
offensive capabilities makes them challenging threats for our 
missile defense systems. A space sensor layer is needed because 
we cannot populate the Earth and the oceans with enough 
terrestrial radars to meet this need to track these threats.
    The birth-to-death tracking that space sensors can provide 
when integrated with terrestrial sensors will make it possible 
to maintain custody of missile threats from launch through 
intercept, regardless of launch location.
    On regional defenses. For regional defense, we are 
increasing a number of Terminal High-Altitude Area Defense 
interceptors and Standard Missile-3 Block IBs and Block IIAs, 
investing in the modernization and upgrade to enhance our Aegis 
Ballistic Missile Defense capabilities.
    Additionally, through incremental upgrades to our command 
and control battle management and communication system, we will 
continue to integrate homeland and regional missile defense 
capabilities, improving the global missile defense battle 
management tools of the combatant commanders.
    Finally, projected missile threats include new ballistic 
missile systems, advanced cruise missiles, and hypersonic 
missile capabilities that are now being actively tested by 
other nations.
    We continue to advance the state of the art for scaling 
electric laser power and pursue competing technologies to 
reduce their development risk. Such efforts as distributed 
gain, diode-pumped alkali lasers, and fiber combining laser 
technology have the potential to meet missile defense 
requirements.
    With this budget, we would also fund software modifications 
to the Ballistic Missile Defense System and further define the 
architecture for future hypersonic defense demonstrations.
    Mr. Chairman, Ranking Member Turner, members of the 
subcommittee, in closing, our fiscal year 2020 budget funds 
missile defense development efforts, including several critical 
capabilities required by the warfighter.
    We will continue to increase the liability as well as the 
capability and capacity of fielded homeland and regional 
missile defense systems and make measured investments in 
advanced technology to counter the adversary missile threat.
    Thank you once again, and I look forward to your questions.
    [The prepared statement of General Greaves can be found in 
the Appendix on page 61.]
    Mr. Cooper. Thank you, General.
    Vice Admiral Kriete.

 STATEMENT OF VADM DAVID KRIETE, USN, DEPUTY COMMANDER, UNITED 
                    STATES STRATEGIC COMMAND

    Admiral Kriete. Chairman Cooper, Ranking Member Turner, and 
distinguished committee members, good afternoon. I am honored 
to appear before you today on behalf of General John Hyten, the 
commander of U.S. Strategic Command [USSTRATCOM], and the 
162,000 Americans who are accomplishing our missions every day.
    As the warfighter advocate for missile defense, it is my 
privilege to sit alongside our missile defense partners, 
General O'Shaughnessy, Mr. Behler, Mr. Anderson, and Lieutenant 
General Greaves, because we cannot do our missions alone. The 
defense of our Nation against missile threats is certainly a 
team effort, requiring each of us sitting before you today to 
work together in defense of the homeland, our allies, and our 
partners.
    I want to begin by thanking this committee for your 
enduring support to national defense. The stability afforded 
through this year's on-time budget came at a critical time for 
us, and I cannot overstate the enormous impact it has had on 
improving our force readiness and modernization efforts.
    I would also like to express my gratitude to the 
subcommittee for broadening the strategic deterrence discussion 
and bringing this issue back to the forefront of our national 
dialogue.
    Today we are here to discuss missile defense. Although this 
is one single mission from the broad portfolio assigned to 
USSTRATCOM, missile defense remains a central tenet of our 
overall strategic deterrence mission.
    As stated in the National Security Strategy, the United 
States has a robust and credible layered missile defense 
system, which when paired with offensive capabilities, this 
combination sends a strong message allowing us to deny benefits 
and impose costs against any potential adversary. Although we 
rely on nuclear capabilities to deter near-peer strategic 
threats, missile defense endures as a critical component of 
comprehensive, strategic, and tailored regional deterrence 
strategies.
    Today, the United States, our allies, and partners face 
potential adversaries who are investing in additional capacity 
and new technology specifically designed to defeat current 
missile defense systems. If left unaddressed, this expanding 
missile threat could embolden our adversaries into mistakenly 
believing that they can coerce us, inhibit our freedom of 
action, or undermine our security alliances.
    So out of necessity and prudence, we must adapt to the new 
threats as well. We must adapt faster than our adversaries to 
ensure we never fail at our highest priority. Above all else, 
we will provide strategic deterrence.
    In order to stay ahead of these threats, we must field 
adaptable systems capable of meeting the changing security 
environment. Our missile defense approach must integrate active 
missile defenses to intercept adversary missiles, passive 
defenses to mitigate their effects, and options during a 
conflict to neutralize missile threats prior to launch.
    There will not be a silver bullet or a single exquisite 
capability that will provide a perfect solution, so we must be 
vigilant in our efforts to outpace emerging threats and not 
cede our current advantage. We must also do so in a cost-
effective manner.
    Thank you very much for the opportunity to be here today, 
and I look forward to your questions.
    [The prepared statement of Admiral Kriete can be found in 
the Appendix on page 106.]
    Mr. Cooper. I thank the witnesses for their testimony.
    I would like to ask unanimous consent that nonsubcommittee 
members also be able to ask questions at the end of the 
questioning. And I would like to hold all members, myself 
included, to the 5-minute rule so that we can get to the 
classified session in a more rapid manner.
    Hearing no objection, nonsubcommittee members will be able 
to ask questions as well.
    If I had to summarize all the testimony, I would say that 
the single most important line, at least the most surprising 
line to the average citizen, would be from General 
O'Shaughnessy when he said on page 10 that he views the Arctic 
as the front line of defense for North America, for U.S. and 
Canada.
    I think most Americans would be surprised by that. Can you 
elaborate?
    General O'Shaughnessy. Chairman, thanks for highlighting 
that. And we do view as the threat that we see today both of 
the cruise missile threat, the bomber threat, and ultimately 
potentially the hypersonic threat as it continues to be 
developed, that we have a capability gap developing if we don't 
take action now. We see that as an avenue of approach that, 
clearly, if you were, for example, putting yourself in the 
Russian position, that if you were going to attack North 
America, that would be the avenue that you would likely choose.
    As such, we are advocating for increased domain awareness, 
increased ability to operate in that environment, and 
ultimately to make sure that we stay ahead of the threats that 
we feel are coming from that direction.
    Mr. Cooper. The ranking member quite properly mentioned the 
missing funding for space-based sensors. Can anybody explain 
where that funding will come from?
    Secretary Anderson. So I would be happy to start on that. 
It is true in the MDA budget there is not requested funding, 
although it does appear on the unfunded list. Space sensor 
efforts related do appear, however, in the Space Development 
Agency's budget. As you know, the Space Development Agency is 
just getting started. It has hired a director, has a small 
staff, but there are certain lines in that requested budget 
related to space sensor efforts.
    And those--for example, there is a proliferated low Earth 
orbit [pLEO] sensor technology, $20 million for that. There is 
what is known as the data transport layer architecture 
standards, there is $15 million for that. There is ground 
integration for pLEO as well, another $30 million, as well as a 
space-based discrimination study, $15 million.
    So there is money, but it is in a different place this 
year. And the big reason for that is, over the past year, there 
has been kind of a change in the Department's approach in terms 
of thinking about where to put future satellites, and the 
essential shift, and perhaps General Greaves can elaborate, is 
moving from kind of a midlevel orbit to the low Earth orbit and 
having a more distributed architecture leveraging work that 
both the Air Force has done and DARPA [Defense Advanced 
Research Projects Agency] has done in a distributed approach. 
So that is where we are headed going forward.
    Mr. Cooper. Thank you.
    Mr. Behler mentioned that we face a deficit in cross 
training or joint training for our THAAD and Patriot cruise so 
that we can operate in a truly layered defense, because there 
won't be very good layers if they are not communicating with 
each other.
    Mr. Behler. That is exactly right. I said that in my 
written testimony. And we found that when we want to look at 
deconfliction using THAAD and Patriot, the training is not 
there, and we have no automated way of doing deconfliction. So 
training is really important, I think, for the soldiers 
operating these systems.
    Mr. Cooper. Thank you. And, Mr. Behler, can you explain why 
the recent and thankfully successful test cost $300 million?
    Mr. Behler. Well, I can attempt to, sir. There is a lot of 
assets being used there. We launched--I am sorry, Missile 
Defense launched three ICBMs that crossed five different 
ranges. Range safety is a big cost associated with that, making 
sure it is all clear, all the assets required to keep it clear. 
And the missiles themselves, the interceptor, the ground-based 
interceptors, they cost upwards to $80- to $90 million apiece 
also. We launched two of those. So if you add all that up, I 
think the biggest cost is range safety.
    Mr. Cooper. Finally, Admiral Kriete, General Hyten in his 
testimony, which you delivered very well, urges us to take more 
risk, to be more entrepreneurial. Can you explain that 
statement?
    Admiral Kriete. Yes. Thank you, Chairman Cooper. General 
Hyten has remarked on many occasions about the urgent need for 
us as a department to be able to go faster, to set requirements 
to develop capabilities, put them in the field of our 
warfighters faster than we have been doing in recent years. And 
it is really all based on the threat. And as we see, 
particularly in this missile defense area, the range of missile 
capabilities that are being developed by a number of our 
adversaries both in increased capability and capacity in ways 
that are used to either coerce or provide aggressive means to 
our adversaries, they are doing that at a pace that makes it 
more and more challenging for us to stay ahead of it.
    Make no mistake, as the combatant commander responsible for 
coordinating missile defense, General Hyten firmly believes 
that we are ahead of the threat today. But they are closing the 
gap quickly, and that is why we need to go fast.
    Mr. Cooper. Thank you. My time has expired.
    The ranking member.
    Mr. Turner. Well, thank you.
    To each of you, as you recall, 10 years ago missile defense 
was viewed as provocative, that it costs too much and that it 
wasn't going to work. Through your work and the accomplishments 
of Israel and the actual application that they have had to 
deploy, the conversation has changed. No longer do people look 
at it as provocative. They actually know that it doesn't cost 
too much. It saves lives. It actually reduces the risk. It 
deescalates, and, in fact, it works. But in some instances, we 
still have a tremendous amount of work to do. I want to thank 
you for the work that you are doing.
    General Greaves, you were in my office, though, and we were 
talking about the issue of structure, how do we make all of 
these things work. And there is a lot of talk about Space 
Force, Space Corps, Space Command. And one of the concerns that 
you were discussing was how all these fit together. And you 
gave an excellent description of how the Space Development 
Agency might assist and not compete with the Missile Defense 
Agency. I thought you might share that for us here.
    General Greaves. Thank you, Congressman Turner. Getting 
right to the answer of the question, is the way I would look at 
this entire mission area is what is the mission? The mission is 
missile defense, the mission is hypersonic defense, the mission 
is defense against dim targets and other challenging targets. 
So the answer to that is not a specific element, such as a 
satellite or a radar or a ship. The answer is an integrated 
architecture that is layered as in resilient, that can respond 
to the threat and meet the threat.
    So the current Ballistic Missile Defense System is 
composed, as you know, of ground radars, it is composed of such 
elements as the space-based infrared system that the Air Force 
flies, it is composed of the Navy ships, it is composed of the 
THAAD system. And those are all elements, but they are only 
important because they feed into an integrated command and 
control ballistic missile defense architecture that then picks 
out specific interceptors to go execute the mission.
    So why do I not feel that the Space Development Agency is 
competing with missile defense? Because the mission of missile 
defense resides within the Missile Defense Agency. The ability 
to take disparate sensors and capabilities from wherever they 
may occur, whether they are organic or nontraditional missile 
defense sensors, and integrate them, that is what is important, 
into the architecture is what makes it very powerful. And that 
is how I would answer the question, sir.
    Mr. Turner. General, as you know, the east coast missile 
defense site, as it is called, even though two of the sites 
that are being considered are in the Midwest, not the east 
coast, was congressionally mandated for the beginning of the 
assessment process. The Missile Defense Review states that no 
work will be done on this site until there is actually a 
maturation of the threat. I don't think anybody is arguing with 
that. We are, though, very concerned about the designation of 
the site. It was congressionally mandated, the work is done. If 
you tell the sites, then obviously as I have indicated, two 
communities would be released, wouldn't require that you move 
forward.
    Is there anything that happened--is there any prejudice to 
you that--because when you and I were having this conversation, 
it didn't seem like there was any. Is there any prejudice to 
you to complete that designation, as long as it is clear that 
we are not proceeding until the threat is mature?
    General Greaves. Congressman, I will say, first of all, 
that I am not the decision maker. However, since you have asked 
the question, I have made the recommendation to proceed with 
that, and it is being debated and deliberated within the 
Department up through the SECDEF's [Secretary of Defense's] 
level and other places. And my hope is that we come to a 
conclusion and make a decision.
    Mr. Turner. I appreciate both your recommendation in favor 
but also your answer, and I want to give my last minute to 
Elise Stefanik.
    Ms. Stefanik. Just a follow-up on this. I appreciate my 
colleague and friend Mr. Turner's focus on this. Our 
congressional intent was very clear. The environmental impact 
study was funded, was authorized by Congress. That has been 
completed. We had language in previous NDAAs that would require 
an announcement of the preferred site.
    And to your point, General Greaves, about the decision-
making process, the Secretary of Defense sat in this very 
committee room and said on record, under oath, that he intended 
and had no problem and would meet our request to voluntarily 
provide that information to Congress. Not only did he say that 
to me in answering my questions, but he also said that to Tim 
Ryan.
    So our expectation, on the record, let me make it perfectly 
clear, is that our expectation that we will hear from the 
Secretary of Defense what the preferred site is.
    Just to reiterate Mr. Turner's point, you have three 
communities who have worked incredibly hard to advocate on 
behalf of this. One of mine is Fort Drum, which I believe is 
the strongest community to be the preferred site. But we expect 
to hear that from the Department of Defense, and I look forward 
to hearing feedback today from the Department in response to 
this test--to my question or my comment.
    I yield back.
    Mr. Cooper. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chairman, and thank you to all 
the witnesses that are here today.
    General Greaves, how many ground missile defense tests have 
been conducted to date? And how many and what percentage of 
these tests have been successful?
    General Greaves. Congressman, I should know the number; I 
do not at hand. The main message I leave you with is that I 
absolutely believe it is wrong to compare testing and test 
results done at the beginning of any developmental program with 
testing that is done as a product of learning from those 
failures and successes, but are done more recently. I see--I 
see--it disturbs me quite a bit. I see straight math done on 10 
launches and 3 failures. So, you know, you have got a 30 
percent failure rate; math in public.
    But I would ask you to look at the testing record of the 
Ballistic Missile Defense System since 2010, there were two 
failures back then, but what was done to recover from those 
failures to improve the system and test against ever more 
challenging targets and threats and the successes we have. The 
devil is in the details, and that is where I think we need to 
go, as opposed to looking at the straight math comparing 
testing done in 2005 to testing done in 2019. They are not 
similar at all.
    Mr. Carbajal. Well, let me ask you a different way. You 
can't have it both ways. You can't have it--we can't look at it 
that way and then look at it that way.
    Recently, a statement was made that our missile defense 
system would be 97 percent effective against North Korean 
missiles. Is that an accurate statement?
    General Greaves. Yes, it is. And I can discuss that further 
in a classified session.
    Mr. Carbajal. Okay. When planning and developing these test 
scenarios, how do you ensure these tests are not using outdated 
threat representations?
    General Greaves. In this forum, I can say that all test 
scenarios begin with input from the intelligence community to 
assess what that threat is. And then we work very closely with 
the developmental testers and the operational testers to design 
the test. The objectives of the test, it is approved by--in an 
operational test as an example--approved by the operational 
testers to say these are the goals, these are the parameters, 
this is pass/fail, and then we go off and execute it. So it is 
as realistic as we can get it.
    Mr. Carbajal. Thank you. Just going back, on one hand you 
are telling me that it is 97 percent effective; but on the 
other hand, you didn't give me any specifics about the 
percentage of tests, the success rate we have had. Is it 97 
percent?
    General Greaves. It is 97 percent capable against the 
threat that we foresee. The testing, as I might say, we had 
failures early on, but the record since 2013, I believe has 
been, if not 100 percent successful, very successful. So on the 
record, sir, I can get you those numbers.
    Mr. Carbajal. Thank you.
    General O'Shaughnessy, if North Korea launched a missile or 
multiple missiles at the homeland today, would you be confident 
that the current GMD system would be successful in intercepting 
these attacks?
    General O'Shaughnessy. Sir, I am highly confident that we 
would be able to intercept a set attack from North Korea.
    Mr. Carbajal. Thank you.
    One major concern I have in regards to the GMD program is 
the lack of reporting and the availability of unclassified 
information on the GMD testing and development. There has been 
less transparency specifically on the testing front. This is a 
problem because it inhibits us from effectively conducting the 
oversight that is our responsibility.
    It is my understanding that DOT&E used to provide 
unclassified reports on the GMD program, but this has not 
happened in recent years. Mr. Behler and General Greaves, can 
you both commit to resuming these practices in the future?
    Mr. Behler. I think there is an issue of operational 
security that I am concerned with. I would be happy to, in the 
right venue, to talk about the classified details, the 
reliability rates. I have them with me now, we can talk about 
them when we go closed. But to publish an open document that 
talks about that kind of information, I feel as my 
responsibility to the American people, I am very uncomfortable 
putting that data out that is right now classified.
    Mr. Carbajal. But you would put that in a classified 
setting for us?
    Mr. Behler. Right. And as a matter of fact, I also 
published a classified annual report on missile defense, and 
that information is also in the document that I send you every 
year.
    Mr. Carbajal. Thank you very much.
    Mr. Chair, I yield back.
    Mr. Cooper. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    General Greaves, once again, thank you for your service to 
our country. I think you would agree that a key piece to the 
future of sensor architecture, specifically for hypersonic 
defense, is deployment of a space sensor, but I didn't see it, 
and perhaps I just didn't read it right, in the President's 
budget submission for 2020 that MDA was requesting any funds 
for that effort.
    Did I miss something or is there somebody else that is 
going to do that, or can you enlighten me on that?
    General Greaves. Congressman, it was not missed. The 
decision was made to put that money, that funding into the 
Space Development Agency's budget. I think it was $20 million 
to initiate that study.
    Mr. Byrne. So the Space Development Agency will do it.
    General Greaves [continuing]. To initiate that study. I 
will add that the Congress funded the Missile Defense Agency in 
fiscal year 2019 to continue work on the payload in a sensor 
capability. And what the Space Development Agency is initially 
working on is the spacecraft bus, the host for the sensor 
itself, as well as the overall architecture, you know, and the 
transport layer. That is not what we are doing. We are focused 
on the sensor capability to detect the target and pass on any 
information.
    Mr. Byrne. Okay. Thank you for that clarification. It is 
good.
    Just sort of getting at it a little bit more generally, 
what are your greatest challenges of defending against 
hypersonic missiles at this point in time?
    General Greaves. Thank you, sir. Very good question. In my 
mind, it is their speed, it is their maneuverability, and the 
altitudes at which they fly, which are relatively low when 
compared to ballistic missile defense systems. So unlike the 
predictability of a ballistic threat which, essentially, comes 
from the point its originating to where it is going, we have to 
ensure that we maintain custody from the time it is launched to 
the time we intercept it. And with speed, maneuverability, and 
lower altitude, that becomes more challenging.
    Mr. Byrne. So what solutions have you identified? And how 
much would those solutions cost?
    General Greaves. We have identified that there are two 
distinct phases of mitigating that threat. The less preferable 
case for us is in the terminal phase, the last phase. The area 
where it is most susceptible is in the glide phase, and that is 
where we are focusing our attention. And we can talk more about 
that in the classified section.
    Mr. Byrne. Can you speak to the cost in a nonclassified 
setting?
    General Greaves. I prefer to wait.
    Mr. Byrne. Okay. I understand. Thank you.
    Well, I just want to register my concern about where we are 
versus some of our adversaries on hypersonics. I know that you 
are well aware of that; you know far more about it than I do. 
But the more I learn about it, the more I am concerned about 
it. And I hope during the classified briefing you can give us a 
little more detail about it.
    General Greaves. Yes, sir. And I will leave you with this 
thought, that the hypersonic defense mission, the hypersonic 
concern, the hypersonic mission is either at the top or very 
near one or two in Dr. Griffin's priority list of areas we need 
to address, and it flows down from there.
    Mr. Byrne. Well, I am glad to hear that. Thank you.
    I yield back, Mr. Chairman.
    Mr. Cooper. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    I think most of my questions are going to wind up in the 
classified, so I will let them go. But I do have one that would 
be probably in the unclassified.
    Iron Dome. Recently, two systems to be acquired by the 
Army. It seems to have been successful. There are 1,700 
successful intercepts by the Iron Dome, about 90 percent 
success rate. The cost of it seems to be significantly less 
than our systems, something around $40,000 a shot. I think the 
Patriot is about $6 million a shot.
    Mr. Behler, I see you are nodding your head, so that must 
be about right. I will just assume that it is right, given the 
nod of your head.
    Mr. Behler. Well, I would not go to the bank on that 
number, but I think it is in that range. Yes, sir.
    Mr. Garamendi. I count by 10.
    The question here is how does this fit into our missile 
defense systems? And I guess, General Greaves and General 
O'Shaughnessy, with regard to the NORTHCOM, General Greaves 
with regard to the overall.
    General Greaves. Congressman Garamendi, I will first start 
by saying that the threat against which the Iron Dome is 
deployed is a very different threat, projectiles essentially in 
close-range missiles, than what Patriot or THAAD or the Ground-
based Midcourse Defense.
    When I talk about the successful GBI [ground-based 
interceptor] test that we just did, we are talking closing 
speeds of 22,000 miles an hour at various altitudes.
    Mr. Garamendi. Understood.
    General Greaves. So the complexity of the threat has a 
significant factor--is a significant factor in the ultimate 
cost of the intercept system.
    Mr. Garamendi. You used the word layered defense. It has 
been used by several of you here. And from Mr.--General 
O'Shaughnessy, specifically, is Iron Dome part of a layered 
defense for your mission? And then more generally, I guess that 
should be for Mr. Behler or Dr. Anderson for the general 
military purposes.
    General O'Shaughnessy. Sir, we absolutely do support the 
layered defense mentality. That is, I think as we look at the 
future against all threats, against ballistic missiles, against 
cruise missiles, and against the future hypersonic missiles, 
the end state needs to be a layered defense capability capacity 
throughout North America.
    As we look at the particulars of the Iron Dome 
specifically, to Lieutenant General Greaves' point, it is a 
slightly--it is a different nature of the threat there.
    What I do absolutely agree with is we have to flip the cost 
curve. Right now, if you look at the cost per shot that we are 
taking against anywhere from ballistic missiles, cruise 
missiles, and eventually hypersonics, we are on the wrong end 
of that cost curve. So to your point, I absolutely support and 
agree that we do need to flip that cost curve so we can have a 
high rate of fire, a large magazine at a much lower cost if we 
are going to be able to truly defend North America.
    Mr. Garamendi. Presumably, the Iron Dome is good for cruise 
missiles?
    General O'Shaughnessy. Sir, again, it depends on the 
specifics of the type of missiles that we are talking about. 
For example, we have some capability capacity within the 
National Capital Region that is similar in nature, but it is of 
a different nature of the threat that we would necessarily want 
to apply across all of North America.
    Mr. Garamendi. Okay. In a larger context, with regard to 
the U.S. Army acquiring two batteries, I guess, Mr. Behler or 
Dr. Anderson, the utility of it there?
    Secretary Anderson. So my understanding is the Army is 
requiring this as kind of an interim solution. It may end up 
being a permanent solution for them to be used in a deployed 
context, whether that be in the European theater or perhaps in 
the Indo-Pacific theater. It is--as your question suggested, it 
is a proven system, highly effective. And it is something that 
the Army has decided to at least start with as part of their 
ability to defend themselves.
    And this is important because, as indicated in the Missile 
Defense Review, which does obviously talk about homeland 
defense, but it also talks about supporting our friends and 
allies and being able to preserve our freedom of movement 
abroad of U.S. forces. And in the particular context of the 
European theater and also the Indo-Pacific theater, now we face 
some pretty tall military challenges. And having an ability to 
protect ourselves from shorter range projectiles is very 
important, and that is part of this equation.
    Mr. Garamendi. Mr. Behler, I will take it offline since we 
are out of time, and we have been held to 5 minutes. Thank you.
    Mr. Cooper. Ms. Cheney.
    Ms. Cheney. Thank you very much, Mr. Chairman. And thank 
you to all of our witnesses.
    General O'Shaughnessy, could you talk about whether or not 
you agree with some of the assessments we have seen, 
particularly from General Hyten, based on reports that China 
has got the capability now and they have numerous successful 
tests of hypersonic missiles? General Hyten has talked about 
our inability currently to have any defense that would deny an 
adversary the capability of employing such weapons against our 
country. Would you agree with that assessment?
    General O'Shaughnessy. Ma'am, I do agree with General 
Hyten's assessment.
    Ms. Cheney. And given that, would you agree that our 
strategic triad is currently the only form of defense that we 
have of deterrence against hypersonic threats from our 
adversaries?
    General O'Shaughnessy. Obviously, the triad is incredibly 
important. In respect to a threat that is advancing, making it 
very challenging, the defense against the triad gives us the 
ability of that assured use.
    Ms. Cheney. And is it your best military advice that the 
current triad is both adequate and necessary to defend against 
the threat of hypersonics?
    General O'Shaughnessy. Yes, ma'am. I am a strong advocate 
for the triad and keeping the triad as we see it today.
    Ms. Cheney. Thank you very much.
    Let me ask, General Greaves, if you could talk a little bit 
about specifically why the space-based sensors are so important 
in terms of missile defense against hypersonics in particular.
    General Greaves. Yes, ma'am. I will start by saying that 
the nature of a ballistic threat is that, if I am sitting here, 
I throw a baseball in your direction, it goes in a straight 
line and it goes in a parabolic shape, unless I throw a 
fastball directly at you. The hypersonic threat operates at 
much lower altitude, starts off at a higher altitude, then uses 
that energy it gains to bleed it off to accomplish maneuver, as 
well as fly at or right above the atmosphere.
    So unlike a ballistic threat where you can accept some gaps 
in your sensing capability, because you know if it starts here 
and it is aimed at your direction, it will end up in your 
direction, the ability to maneuver, which is dependent again on 
the boost vehicle that the hypersonic threat is using, and the 
energy that it is given, allows it to maneuver out of that 
space. And custody is absolutely critical, because we need to 
ensure we know where it is going, what it is doing, and the 
type of mitigation--mitigating defensive capability we need to 
deploy against it, whether it be kinetic, you know, or in the 
future, potentially directed energy or some other capabilities. 
So that is the major difference and that is what causes the 
concern.
    The ability to sense the hypersonic threat because it is 
flying lower at or above the atmosphere, sometimes in the 
atmosphere, depending on where it is going, proposes specific 
challenges to overhead sensors. We can talk more about that in 
the classified session. But we need an architecture which will 
maintain custody from birth to death of that very dynamic and 
challenging target. That, in essence, is what it is.
    Ms. Cheney. Thank you. And let me add my concern to the 
concern you have heard from I think just about everybody on the 
subcommittee on both sides, that this was zeroed out in the 
budget, and our commitment to making sure that we do everything 
we can to provide the resources necessary in that regard.
    This is also for General Greaves. The 2019 Missile Defense 
Review talked about the need to consider all operational 
options, including offensive strikes, as part of our strategy 
for ballistic missile defense. I am wondering if you can 
address who is responsible across the Department and the 
combatant commanders with respect to policy and capability 
development to integrate these offensive strike capabilities to 
deny adversaries the ability to launch ballistic missiles 
against the United States.
    General Greaves. Yes, ma'am. I will begin with the policy 
end of it, and that is in Dr. Anderson's office led by 
Secretary Rood. And the remaining portions of that task is an 
integrated approach across the Department, beginning with the 
intelligence community supplying the requirements with the 
combatant commander, in the case of missile defense, the 
Strategic Command, after coordinating across all the combatant 
commanders, and to include General O'Shaughnessy.
    And then within the acquisition portion of it, it could be 
led or would be led by agencies such as the Missile Defense 
Agency, working with the services. It is never one thing, for 
instance, that the Defense Agency does by itself; it is always 
in concert with the services. And supporting all of that is a 
rigorous and robust process that ensures interaction between, 
in my case, the Missile Defense Agency and each of the 
services, as well as each of the COCOMs [combatant commands] 
led by Vice Admiral Kriete and his team up at STRATCOM.
    So it is an integrated approach, and I think that that is a 
very beneficial approach because it ensures that we receive 
various perspectives on what may or may not be the best 
approach, and then a decision maker, if it is an acquisition 
and if it is in my lane with my mouse on the decision 
authority, it is me. If it is initial production and on, it is 
Ms. Lord. And if it is research and engineering, it is Dr. 
Griffin. So we all know who the responsible entity is within 
the Department.
    Ms. Cheney. Thank you.
    I will have some additional questions in the closed 
hearing, but I yield back. Thank you, Mr. Chairman.
    Mr. Cooper. The gentlelady's time has expired.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    General Greaves, a DOD IG [Department of Defense Inspector 
General] report was issued in January of this year on DOD 
cybersecurity. And it stated that while some actions had been 
taken by DOD to improve its cybersecurity posture, you still 
had some challenges managing cybersecurity risks in your 
networks. And as I understand it, it was the contractor 
locations where they felt the most exposure.
    What are your thoughts about that IG report?
    General Greaves. Thank you, Congressman. I thank the IG for 
the time they spent assessing our capabilities. During that 
process, I will be frank, I learned quite a bit between 
auditors and capability assessments, you know. An audit is very 
different from a capability assessment.
    When an audit is done, unless all the boxes are checked, if 
there is one that is unchecked, then there is an assumption 
that there is a problem throughout the system.
    What is important for the Ballistic Missile Defense System, 
and in this case it was the developmental architecture that we 
got, not the operational architecture. That is not the issue or 
the concern here.
    We have a layered defense system which is actively 
monitored, not only within the agency but across the 
Department, up through the CIO [Chief Information Officer] 
within the Department. And for everything such as 
authentication of people who try to access the weapon system or 
the development part of the weapon system, those are strictly 
controlled.
    So we had a very robust--I personally went down to see the 
IG staff, with my staff. We talked with them at length 
regarding their findings. And we are at the point now where 
they have responded to us that the issues that they identified 
are on their way to being resolved if we can sign off on a few 
things.
    So it is a real threat. We have a layered defense system 
against that threat. It is not the operational system. It is 
the developmental system that they were concerned about. And I 
think the IG learned quite a bit about defense in depth as 
opposed to an audit.
    Mr. Rogers. Great.
    That is all I have got. I yield back, Mr. Chairman.
    Mr. Cooper. I thank the subcommittee members for their 
questions. I can tease the classified session by saying there 
will be an excellent home movie shown, so I know no one will 
want to miss that. So why don't we start that session at 3:20, 
upstairs in 2212.
    This public portion of the hearing is adjourned.
    [Whereupon, at 3:15 p.m., the subcommittee proceeded in 
closed session.]



      
=======================================================================




                            A P P E N D I X

                              May 8, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 8, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 8, 2019

=======================================================================

      

      

                   QUESTIONS SUBMITTED BY MR. COOPER

    Mr. Cooper. Along with the DODIG findings on cyber vulnerabilities 
of government networks hosting BMDS data, DOT&E has historically been 
critical of MDA's willingness to test operational configurations of the 
BMDS against cyber threats. Can you please provide the committee a 
summary of how DOT&E is working with MDA to ensure both operational and 
developmental systems are being tested against cyber threats? Further, 
can you detail how implementing persistent cyber operations would be 
beneficial in ensuring our critical technology and infrastructure for 
missile defense is protected?
    Mr. Behler. The Missile Defense Agency (MDA) is working on 
multiple, parallel fronts to characterize the cybersecurity posture of 
critical developmental and operational Ballistic Missile Defense System 
(BMDS) assets. DOT&E continues to participate in the planning of 
operational cybersecurity assessments and monitor test conduct to 
inform MDA efforts to improve BMDS cyber resilience. We intend to work 
with the MDA and USD(R&E)/DT&E to finalize an overarching cybersecurity 
assessment strategy that includes robust developmental test and 
evaluation to enable discovery and remediation of cybersecurity 
vulnerabilities prior to operational test and evaluation (OT&E), while 
ensuring that operational cybersecurity assessments inform critical 
fielding decisions. DOT&E is also championing a more deliberate and 
detailed element planning cycle to ensure that cybersecurity findings 
are applied to future engineering updates. DOT&E will work with 
USD(R&E)/DT&E and MDA to develop and implement a robust element-level 
cybersecurity DT&E plan to identify and mitigate vulnerabilities 
earlier. Currently, many vulnerabilities identified during 
cybersecurity OT&E should have been found in DT&E. BMDS mission assets 
and MDA networks remain subject to exploitation by adversarial threat 
actors. Persistent Cyber Operations (PCO) are a continuous means by 
which the MDA can characterize system vulnerabilities induced by the 
operational environment and train warfighters and net defenders against 
a cyber threat emulation that has the time to stealthily employ both 
physical and cyber means of exploitation. If employed properly, PCO 
will help improve the cyber resilience of critical BMDS mission assets 
and MDA networks against advanced cyber threats. Although the MDA has 
significantly increased the amount of cybersecurity OT&E conducted over 
the last two years, cybersecurity DT&E is lacking and the overall test 
activity remains constrained by short test windows, limited access to 
critical BMDS components, and test artificialities that a realistic 
cyber threat does not encounter. Robust cybersecurity DT&E and PCO help 
to remove these limitations. However, the PCO's human element alone is 
unable to scale to the magnitude of the cyber challenges. Therefore, a 
robust effort to develop autonomous tools to identify cyber 
vulnerabilities and patching should be pursued.
    Mr. Cooper. Congress mandated that MDA conduct an SM-3 Block IIA 
intercept against an ICBM-range target by 2021, which is outside of the 
systems designed threat space. Since that mandate, the SM-3 IIA has 
experienced several flight test failures. Would you assess the system 
has been adequately tested against its designed-to threat? Would DOT&E 
assess the system to be ``operationally suitable and effective'' 
against IRBM threats based on the testing done to date?
    Mr. Behler. Aegis Baseline 9.2 and the Standard Missile-3 (SM-3) 
Block IIA guided missile have not yet been adequately tested against 
the designed-to battlespace and threat set. To date, the weapon system 
and missile have successfully completed one end-to-end operational 
Engage on Remote (EOR) engagement in a flight test mission. EOR is 
fundamental to the system's ability to defend against a larger 
battlespace and threat set. A second end-to-end EOR engagement is 
planned for Flight Test, Operational-03 Event 2 and will qualitatively 
demonstrate the repeatability of that capability. System performance 
across the battlespace has not yet been assessed using accredited high-
fidelity modeling and simulation (M&S) tools. A subset of the planned 
high-fidelity M&S runs will be delivered by June 2020, with the 
remainder being delivered by June 2021. Completion of these accredited 
M&S runs, coupled with additional flight testing, will enable DOT&E to 
make an assessment of operational effectiveness for this system against 
intermediate-range ballistic missiles (IRBMs). Additional flight 
testing and data from flight-like, high-fidelity ground testing of the 
missile in its production-representative configuration, will enable 
DOT&E to assess the operational suitability of the system against IRBM 
threats.
    Mr. Cooper. Can you please provide the committee a summary of what 
the ``Neutral Particle Beam'' effort being initiated in PB20 is, and 
the underlying policy decisions that have been made, or will be made, 
about deploying this type of capability in space?
    Secretary Anderson. The Neutral Particle Beam (NPB) is a technology 
demonstration effort to assess the feasibility of a space-based, 
directed-energy intercept layer. This effort would leverage past and 
current work on particle beam and related enabling technologies, as 
well as laser scaling, pointing, and stability to inform future 
decisions. The 2019 Missile Defense Review articulates the policy to 
pursue new missile defense concepts and technologies, including 
disruptive capabilities such as boost-phase intercept, to provide 
protection against evolving missile threats. The policy for any 
potential future decisions regarding space-based capabilities would be 
informed by factors such as technical maturity, threat, feasibility, 
and cost, as well as pertinent political-military considerations.
    Mr. Cooper. Can you please provide the committee a summary of what 
the ``Neutral Particle Beam'' effort being initiated in PB20 is, and 
the underlying policy decisions that have been made, or will be made, 
about deploying this type of capability in space? To employ a Neutral 
Particle Beam in space, would you need a space sensor to provide data 
to that weapon? What are the estimated total costs for an operational 
system? What other technologies and/or solutions were looked for boost-
phase defense prior to moving forward with the Neutral Particle Beam?
    General Greaves. Missile Defense Agency defers to Under Secretary 
of Defense for Research and Engineering (USD(R&E).
    Mr. Cooper. Congress mandated that MDA conduct an SM-3 Block IIA 
intercept against an ICBM-range target by 2021, which is outside of the 
systems designed threat space. Since that mandate, the SM-3 IIA has 
experienced several flight test failures. Would you assess the system 
has been adequately tested against its designed-to threat?
    General Greaves. The SM-3 Blk IIA has been adequately analyzed and 
tested against the designed-to threat. Analysis and testing included 
modeling and simulation, ground testing, and flight testing. Given the 
large number of threat and engagement variables the modeling and 
simulation testing is the primary means to verify performance against 
the designed-to threat set. Ground and flight testing provide the 
evidence necessary to anchor the models and simulation to predict 
performance in real world scenarios. All models used are accredited for 
the intended use of performance assessment. High fidelity missile 
performance models are accredited via comparison to independently coded 
government models. Following flight test, the data gathered is used in 
post flight reconstruction of the event utilizing both models 
supporting continued improvement in fidelity for the models. Specific 
to flight testing, the SM-3 Blk IIA has been successfully tested 
against Medium Range Ballistic Missile (MRBM) (FTM-45 in fiscal year 
2019 (FY19)) and Intermediate Range Ballistic Missile (IRBM) (FTI-03 in 
FY19) threats in both organic and Engage-on-Remote (EoR) engagement 
scenarios. MDA's President's Budget 2020 Integrated Master Test Plan 
version 20.1 includes future flight tests for SM-3 Blk IIA against MRBM 
(FTM-30 in FY20), IRBM (FTO-03 in FY20) and ICBM (FTM-44 in FY20) that 
include additional complexity to further refine and validate the Aegis 
Weapon System/SM-3 Blk IIA performance capability. The flight test 
failure in Flight Test Aegis Weapons System-29 (FTM-29) on January 31, 
2018 was traced back to a manufacturing flaw and improper firing 
sequence of the Arm Fire Device that has since been corrected and 
validated in FTM-45 on October 26, 2018 and again in Flight Test 
Integrated-03 (FTI-03) on December 11, 2018. The SM-3 Blk IIA flight 
test program was established to incrementally learn from test to test, 
with each test serving as a graduation exercise and risk mitigation for 
the next one. Starting with the Controlled Test Vehicle-01 flight test 
on June 6, 2015 that demonstrated the propulsion stack, and eventually 
progressing to the recent FTl-03 test demonstrating EoR in a simulated 
European Phased Adaptive Approach architecture, each test provided 
incremental refinement and validation of the Aegis Weapon System/SM-3 
Blk IIA models. This learning extends not only for the successful 
intercept flights, but those with failed intercepts like FTM-29. Based 
on a continuously evolving and increasingly relevant threat, testing 
our systems at or beyond the limits of their designed specifications 
will serve to build confidence in the system to the warfighter.
    Mr. Cooper. What would the concept for operation be for a ``Neutral 
Particle Beam''?
    Admiral Kriete. The Neutral Particle Beam (NPB) is a promising 
technology with the potential to expand our layered defense abilities 
enabling early ascent/boost phase engagement opportunities. However NPB 
is very early in development. Formulation of a future CONOPs, is 
dependent on a better understanding of the capabilities available when 
the technology is mature and employment size, weight and power 
requirements are known.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DAVIS
    Mrs. Davis. How close is MDA to maturing directed energy technology 
to where it is suitable and effective for missile defense? What are the 
deliverables in FY20 and in the FYDP?
    Mr. Behler. All directed energy efforts being explored by the 
Missile Defense Agency (MDA) are in the basic technology maturation 
phase of development. Potential platforms for directed energy 
applications have not yet been determined, and there are no platform 
integration activities currently being pursued. The MDA's directed 
energy maturation is centered on scaling electrically-driven High 
Energy Laser (HEL) power by a factor of ten, to the megawatt class, 
which is the minimum required for effective missile defense. While 
chemical laser technology has demonstrated higher optical output power 
than electrically-driven lasers, chemical-based lasers were previously 
found to be larger, heavier, harder to operate, and had significantly 
more logistical challenges when deployed. The MDA is currently pursuing 
multiple technologies in parallel, both in industry and at national 
laboratories, with the common goal of increasing laser power with 
adequate beam control. The MDA's FY20 goal is to achieve 100 kilowatt-
class performance in the laboratory with several selected approaches. 
The MDA's maturation strategy is to increase power levels to 300 
kilowatts, then to 500 kilowatts, and then finally to megawatt-class 
power levels. MDA is coordinating its effort and its goals with 
OUSD(R&E) in a Department-wide laser scaling effort. OUSD(R&E) and MDA 
are pursuing four different electrically-driven high energy laser 
technologies, with the goals of increasing output optical power, 
increasing efficiency, and reducing size and weight. OUSD(R&E) 
anticipates that, with its projected funding level in concert with MDA, 
a 500 kilowatt optical power level laser could be reached in FY24. The 
MDA is also developing tracking and sensing technologies that use a 
low-power non-lethal laser. In FY20, two developers will pursue this 
advanced sensor with a precision tracking test anticipated by the end 
of FY21. Results of the test will inform future years' efforts on this 
sensor.
    Mrs. Davis. MDA established a hypersonic defense program in fiscal 
year 2018 to develop and deliver a series of material solutions to 
defeat hypersonic threats. In the fiscal year 2020 President's Budget 
submission, MDA plans to spend over $650 million over the next 5 years 
on hypersonic defense.
    What are the challenges of defending against hypersonic missiles 
from a technological and organizational standpoint? What solutions has 
MDA identified that are needed to defend against hypersonic missiles 
and how much will they cost? Is it technically feasible? What 
deliverables are planned in the FYDP?
    General Greaves. Hypersonic threats fly at speeds and altitudes 
above traditional air defense systems and below the altitude of 
traditional missile defense systems, creating technical challenges for 
either system if they attempt to defeat the threat. Challenges for the 
missile defense system include threat maneuvers, low altitude, and 
hypersonic speeds that make the target unpredictable while also 
compressing the available battlespace. These characteristics impact all 
aspects of the missile defense system's operation, including threat 
detection, tracking, engagement planning, engagement, and assessment of 
the engagement's outcome. These challenges led MDA to identify required 
capabilities for hypersonic missile defense, including persistent 
tracking of an unpredictable threat, improved communications, fire 
control strategy changes (compared to ballistic threats), and very high 
interceptor agility in a harsh aerothermal environment. Since 
hypersonic threats fall between the traditional air defense mission of 
the services and the missile defense mission of the Missile Defense 
Agency (MDA), any solution will be coordinated accordingly. MDA is 
awarding multiple contracts for several HD component technology 
solutions to include: seeker technology; new propulsion techniques; 
guidance technologies in a high stress environment; sensor technologies 
and testing to support detection and tracking; and non-kinetic 
technology solutions to address the hypersonic threat. MDA is also 
utilizing its existing Small Business Innovation Research Program funds 
to identify and support aspects of the kill chain and weapon system 
design for expansion of hypersonic missile defense capabilities in the 
near-future (outside the Future Years Defense Program (FYDP)). The PB20 
submission includes $109.2 million across the FYDP to leverage and 
upgrade existing command and control systems and sensors for improved 
hypersonic tracking and reporting. The weapon system concept 
exploration precedes development of specific weapons solutions; MDA 
will estimate costs for those solutions as part of the selection 
process. Deliverables planned across the FYDP include:
    1. Engineering Enablers: System-level engineering products include 
future architecture definition, test and analysis infrastructure, 
requirements, interface definitions, ground/flight test assessments, 
and core lethality test results.
    2. Command and Control, Battle Management and Communications 
(C2BMC) Upgrades: C2BMC upgrades include capabilities for hypersonic 
threats delivered in FY21 and FY23; other details classified.
    3. Weapon Concept Definition and Risk Reduction: Deliverables 
include glide phase weapons system technology development and testing 
data that demonstrates technologies needed for a HD capability.
    4. Radar Upgrades: Current BMDS sensor deliverables include Army 
Navy/Transportable Radar Surveillance and Control (AN/TPY-2) radar and 
Long Range Discrimination Radar (LRDR) software upgrades (FY23).
    5. Sensor Technology Improvements: Improvements include development 
of new high resolution sensors and a state of the art testbed needed to 
demonstrate capabilities against hypersonic threats.
    6. Partner Flight Test Participation: Data collected from two 
partner flight test events will support Weapons Concept Definition and 
Risk Reduction activities. In both events, MDA will collect data to 
shape future defensive capability and assess current capability to 
inform incremental missile defense updates.
    Mrs. Davis. How close is MDA to maturing directed energy technology 
to where it is suitable and effective for missile defense? What are the 
deliverables in FY20 and in the FYDP? Does MDA's PB20 request include 
any funding to begin integrating into an airborne platform? At this 
stage, for each of the candidate technologies, can you tell us what the 
assumed platform would be (i.e. UAV, space, other)?
    General Greaves. How close is MDA to maturing directed energy 
technology to where it is suitable and effective for missile defense? 
    <bullet>  All directed energy efforts being explored by the Missile 
Defense Agency (MDA) are in the basic technology maturation phase of 
development. MDA has developed knowledge points over the Future Years 
Defense Program to track technical progress supporting knowledge based 
decisions. Potential platforms for directed energy applications have 
not been determined, and there are no platform integration activities 
currently being pursued. Our strategy is synchronized with the Office 
of the Secretary of Defense Laser Roadmap.
    <bullet>  MDA's directed energy maturation is centered on scaling 
electrical-based high energy laser power by a factor of ten to the 
megawatt class that is required for effective missile defense. While 
chemical technology is more mature, chemical-based lasers were 
previously found to be larger, heavier, harder to operate, and had 
significantly more logistical challenges when deployed.
    What are the deliverables in FY20 and in the FYDP?
    <bullet>  MDA is currently pursuing multiple technologies in 
parallel, both in Industry and at National Laboratories, with the 
common goal of increasing laser power with adequate beam control (i.e., 
MDA's Laser Component Technology and Beam Control program). The Fiscal 
Year (FY) 2020 goal is to achieve 100 kilowatt class performance in the 
laboratory. The maturation strategy is to increase power levels to 300 
kilowatts, then 500 kilowatts, and finally megawatt class power levels. 
MDA anticipates that with the President's Budget 2020 (PB20) funding 
level, it will be approximately FY 2025 before the 500 kilowatt power 
level could be reached.
    <bullet>  MDA is also developing tracking and sensing technologies 
that use a low-power non-lethal laser. Electrical-based lasers are 
available today for use as low-power tracking devices. In FY 2020, two 
developers will pursue this advanced sensor with a precision tracking 
test anticipated by the end of FY 2021. Results of the test will inform 
future year efforts on this sensor.
    Does MDA's PB20 request include any funding to begin integrating 
into an airborne platform?
    <bullet>  There is no funding in the 2020 President's Budget for 
any platform integration. The efforts will be focused on the critical 
technology maturation needs and scaling laser power to levels required.
    At this stage, for each of the candidate technologies, can you tell 
us what the assumed platform would be (i.e. UAV, space, other)?
    <bullet>  Laser scaling work is platform agnostic. Sufficient laser 
power levels need to be demonstrated before investing in a specific 
platform.

                                  <all>
</pre></body></html>
